                                                                              NATIONAL SCIENCE FOUNDATION
                                                                               OFFICE OF INSPECTOR GENERAL
                                                                                 OFFICE OF INVESTIGATIONS

                                                                      OSEOUT MEMORANDUM                       I
                                                                                                              I
                                                                                                              I




                                                                                                              I
                                                                                                              I
                                                                                                              i
                                                                                                              I
                                                                                                              I
                                                                                                              I




                 OIG concluded that the government employees' acceptance of the meals from the contractor
          would, if established, violate applicable ethics regulations, and forwarded the allegatibn to the
                                                                                                              I
          employees' supervisor for investigation and disciplinary action. The supervisor orally admonished
                                                 'I
          the employees for their actions and arranged ethics training for the organization.
                                                             II




                     Accordingly, this case is closed.
                                                                  1

                                                                  \
                                                         .        #
                                                                  I
                                                                      I




                                                                          1




                                                                              I

                                                                              I




                                                                              !

                                                                                  I




          I
          2
          3

              $75 per meal; applicable regulations would penbit receipt o f a meal worth $20 or less.
                                                                                      I


                                                                                      I

NSF OIG Fonn 2 ( 1 1/02)
                                                                                      ,i
